No.19-__
INTHE

~upreme (:ourt of tbe mniteb ~tates
MYNOR ABDIEL TuN-Cos, ET AL.,

V.

Petitioners,

B. PERROTTE, ETAL.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF SERVICE

I, David M. Zionts, counsel for Petitioner and a member of the Bar of this
Court, certify that on November 20, 2019, I caused three copies of the Petition for a
Writ of Certiorari in the above-captioned case to be sent by first-class mail, in
accordance with Rules 29.4(a) of this Court, to the following:
The Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W
Washington, D.C. 20530
I further certify that, in accordance with Rule 29.3 of this Court, I caused
three copies of the Petition for a Writ of Certiorari in the above-captioned case to be
sent by first-class mail to Respondents, through the below counsel of record:

Anne Murphy
Civil Division, Appellate Section
950 Pennsylvania Avenue, NW, Rm. 7523
Washington, DC 20530

r

November 20, 2019

~~----

~

David M. Zionts
Counsel of Record
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000

